Office of Inspector General




       http://oig.lsc.gov/
                                                           October 29, 1999




                   TO THE BOARD OF DIRECTORS
           OF THE LEGAL SERVICES CORPORATION (LSC)
                                 AND
                  THE UNITED STATES CONGRESS




      This Semiannual Report on the activities of the Office of
Inspector General of LSC covers the six-month period from April 1,
1999 through September 30, 1999.          Section 5 of the Inspector
General Act of 1978 requires that the Board of Directors, as the
designated Federal entity head, transmit this report to the appropriate
committees of the Congress within 30 days, together with its report
commenting on the contents of the Report.




                                       E. R. Quatrevaux
                                       Inspector General




                                   -
                                 TABLE OF CONTENTS


EXECUTIVE SUMMARY ...................................................................ii
INTRODUCTION ..............................................................................1
  Corporate Structure ..........................................................................................1
  Grant-Making Activities.....................................................................................1
  Certification of Independence............................................................................1
AUDITS..........................................................................................2
  Review of Case Statistical Reports....................................................................2
  Audit Service Review Reports ...........................................................................3
  Audit Service Review Reports Issued.................................................................4
  Prior Period Recommendations ..........................................................................5
  Case Statistical Audit Reports Issued.................................................................5

INVESTIGATIVE ACTIVITIES ............................................................7

LEGISLATIVE AND REGULATORY REVIEW........................................9
  Statutory Recommendation ...............................................................................9
  Congressional Hearing ......................................................................................9

TABLE 1 Reports Issued with Questioned Costs..................................................11
  for the Period Ending September 30, 1999

TABLE II Audit Reports Issued with Funds to be Put to Better Use .....................12
 for the Period Ending September 30, 1999

TABLE III Index to Reporting Requirements
 of the Inspector General..................................................................................13




                                                       -
                       EXECUTIVE SUMMARY


      Seven audit reports of grantee Case Statistical Reports were issued. The
audits continued to find inaccuracies in the caseload information reported to LSC.
(Page 2)

       One of the grantees audited denied OIG auditors access to information,
asserting attorney-client privilege. The OIG disagreed that the information sought
was privileged. Several other grantees have since refused to provide documents to
LSC management. Shortly after the close of the reporting period, the Inspector
General and the LSC President submitted a joint legislative proposal that would
provide the access needed to hold grantees accountable for their use of federal
funds. (Pages 2 and 9)

      The Inspector General testified at a hearing of the House Judiciary
Subcommittee on Commercial and Administrative Law on the results of the audits
of Case Statistical Reports. He also demonstrated that allegations to the effect
that the OIG purposefully withheld audit information from Congress were false.
(Page 9)

      Fifty reports of Audit Service Reviews were issued. Five reviews found
some deficiencies in the compliance checking by the independent public
accountants who conduct the annual audits of LSC grantees. The remaining 45
reviews found that the auditors adequately tested grantees’ compliance with laws
and regulations. (Page 3)

      The former Executive Director of an LSC grantee in California was disbarred
from the practice of law as a result of an OIG investigation initiated in 1993, and
based on a subsequent complaint filed by the OIG. (Page 7)

       Five Client Trust Fund Inspection reports were issued. One inspection found
that the grantee did not comply with applicable LSC guidance. (Page 7)

      Two thefts by employees of LSC grantees were referred for prosecution.
(Page 7)




                                     Page ii -
                        INTRODUCTION



Corporate Structure

      The Board of Directors of LSC ("the Corporation") is composed
of 11 members appointed by the President of the United States with
the advice and consent of the Senate. The Board sets general policy
and oversees the management of the Corporation.         The Inspector
General reports directly to the Board in its capacity as head of the
entity. The Board also appoints the President of the Corporation, who
serves as the principal management official of the Corporation.

Grant-Making Activities

      The Corporation is authorized by Congress to make grants and
contracts to support the provision of civil legal assistance to clients
who meet eligibility requirements. The Corporation makes grants to
entities that, in turn, provide legal assistance to indigent persons
throughout the United States, Puerto Rico, the U.S. Virgin Islands,
Guam, and Micronesia.

Certification of Independence

      Inspector General operations in this period were free of personal
or organizational impairment.




                                Page -1-
                                     AUDITS


      During this reporting period, the OIG issued seven audit reports on the
accuracy of grantee Case Statistical Reports. Three reports covered grantees’
1997 case statistical data and four covered 1998 data. The OIG also completed
60 Audit Service Reviews and issued 50 reports by the end of the reporting period.

Review of Case Statistical Reports

       Final audit reports on 1997 case statistical data were issued for: Gulf Coast
Legal Foundation (Houston, TX), Prairie State Legal Services (Rockford IL), and
Legal Action of Wisconsin. The reported closed cases for Gulf Coast were
overstated by 2,015 cases (23 percent). The single largest problem was that 677
cases that were several years old were reported closed in 1997 even though all
legal services were provided prior to 1997. An estimated 1,338 cases should not
have been reported because they were not supported by case documentation, no
legal services were provided, were duplicates of previously reported cases, or
clients’ income exceeded LSC guidelines. The closed case error rate for the two
other grantees was about six percent. The errors for these two grantees occurred
because: no legal services were provided for some reported cases; cases were not
closed in the year legal services ceased; over income clients were provided service,
and cases were reported more than once.

       Final audit reports on 1998 case statistical data were issued for: Monroe
County (New York) Legal Assistance Corporation, Philadelphia Legal Assistance
Center, Legal Aid Bureau (Maryland), and Legal Services of Eastern Missouri. The
reviews found that the four grantees overstated closed cases by almost 13,000,
and that closed case error rates ranged from 24 to 43 percent. Over 5,400 cases
were reported as closed in 1998 even though all legal services had been completed
in prior years. Legal services were not provided in almost 2,200 cases. In
addition, applicants who were rejected when applying for assistance were reported
as cases, as were numerous duplicate cases. One grantee, Legal Services of
Eastern Missouri, reported over 2,200 cases even though the clients’ names were
not recorded. A documented client name is a prerequisite for reporting a case.

       One grantee, Legal Aid Bureau (Maryland), denied the OIG auditors access to
needed information. Asserting attorney-client privilege, the grantee refused to
provide any nonpublic information to verify the type of legal services provided. As
a result, the OIG was unable to determine if legal services were provided to the
clients. The provision of legal services is a prerequisite to reporting a case.


                                      Page -2-
       The audits found fewer errors in the number of open cases reported, which
are those open on the last day of the year. The accuracy of the open cases in
grantee case management systems is important because an accurate database is
essential to effective case management. However, open cases are not a reliable
indicator of caseload because the vast majority of these cases will be reported as
closed in the next year’s tally. The seven audited grantees all overstated the
number of open cases.

      The OIG also conducted two additional 1998 case statistical audits in this
period and issued draft reports. The final reports for these audits will be issued in
the next reporting period.


Audit Service Review Reports

      Audit Service Reviews (ASRs) examine the working papers of the
independent public accountants (IPAs) who conduct the annual financial and
compliance audits of LSC grantees. The objective of the ASRs is to determine if
the independent public accountants properly reviewed grantees’ compliance with
14 restrictions and prohibitions imposed by Congress.

       The OIG issued 50 ASR reports during the period. Five ASRs found
deficiencies in the IPAs’ testing procedures. The OIG required the IPAs to perform
additional work to correct the deficiencies. The other 45 ASRs found that the IPAs
adequately tested grantees’ compliance with LSC regulations and that the audit
reports provided reasonable assurance that grantees complied with LSC
regulations.




                                       Page -3-
    Audit Service Review Reports Issued




Legal Aid of New River Valley, Inc. (VA)         Legal Services of North Florida, Inc. (FL)
North Mississippi Rural Legal Services (MS)      Western Kentucky Legal Services (KY)
Kisatchie Legal Services Corporation (LA)        Legal Aid Society of Dayton, Inc. (OH)
Legal Aid Foundation of Long Beach (CA)          Legal Action of Wisconsin (WI)
Meramec Area Legal Aid Corporation (MO)          Susquehanna Legal Services (PA)
Laurel Legal Services (PA)                       Central Pennsylvania Legal Services (PA)
Bucks County Legal Services (PA)                 Legal Aid of Western Missouri (MO)
Legal Services of Northern Michigan (MI)         Carolina Regional Legal Services (SC)
Palmetto Legal Services (SC)                     Southeast Missouri Legal Services (MO)
Legal Aid Society of Albuquerque (NM)            Ocean-Monmouth Legal Services (NJ)
Legal Services of NE Wisconsin (WI)              Capital Area Legal Services Corp.(LA)
Pinal & Gila Counties Legal Aid Society (AZ)     Northwest Louisiana Legal Services (LA)
East Arkansas Legal Services (AR)                New Center for Legal Advocacy (MA)
Wooster-Wayne Legal Asst. Society (OH)           Neighborhood Legal Services (NY)
Legal Services of Central New York (NY)          Channel Counties Legal Services Assoc. (CA)
Gulf Coast Legal Services (Houston, TX)          Legal Services of Greater Miami, Inc. (FL)
Legal Aid Society of Mid New York (NY)           West Texas Legal Services (TX)
Utah Legal Services (UT)                         Community Legal Services (CA)
Legal Aid Society (NE)                           Montgomery County Legal Aid Society (PA)
Memphis Area Legal Services (TN)                 Greater Bakersfield Legal Assistance (CA)
Southern Tier Legal Services (NY)                Bergen County Legal Services (NJ)
Passaic County Legal Services (NJ)               Appalachian Research & Defense Fund (WV)
Legal Aid of Central Texas (TX)                  Pikes Peak Legal Services (CO)
Legal Services of Upper East Tennessee (TN)      Oregon Legal Services (OR)
Statewide Legal Services of Connecticut (CT)     Chemung County Neighborhood Legal Services (NY)




                                               Page -4-
Prior Period Recommendations

       There are nine open recommendations to LSC management from prior
reporting periods. They are as follows:

      Summary Report on Audits of Selected Grantees for Compliance with
      Selected Regulations. One recommendation on timekeeping procedures
      remains open.      A revision to the timekeeping regulation is under
      consideration by the Board of Directors.

      Report on Inspection of Alternative Work Arrangements.             Seven
      recommendations to improve LSC’s alternative work arrangements program
      remain open. A new personnel manual is being finalized and is expected to
      address the recommendations.

      Legal Aid Bureau, Incorporated (Maryland) (Recipient No. 321016) -
      Compliance with Selected Regulations Performance Audit.                 One
      recommendation that LSC management should review the applicability of the
      regulation on alien eligibility to children in long-term foster care remains
      open. The Office of General Counsel is reviewing the regulation to determine
      if changes are needed.



Case Statistical Audit Reports Issued




               Prairie State Legal Services (Rockford, IL) (514076)
              Gulf Coast Legal Foundation (Houston, TX) (744060)
                       Legal Action of Wisconsin (550041)
                   Legal Aid Bureau, Inc. (Maryland) (321016)
       Monroe County (New York) Legal Assistance Corporation (233130)
                 Philadelphia Legal Assistance Center (339000)
                   Legal Services of Eastern Missouri (526020)




                                        Page -5-
AUDIT REPORTS
     Open at beginning of reporting period      6
     Issued during reporting period             7
     Closed during reporting period             0
     Open at end of reporting period            13


AUDIT SERVICE REVIEW REPORTS
     Open at beginning of reporting period      0
     Issued during reporting period             50
     Closed during reporting period             45
     Pending at end of reporting period         5


RECOMMENDATIONS TO LSC GRANTEES
     Pending at beginning of reporting period   18
     Reported during this period                50
     Closed during reporting period             14
     Pending at end of reporting period         54


RECOMMENDATIONS TO LSC MANAGEMENT
     Pending at beginning of reporting period   10
     Reported during this period                0
     Closed during reporting period             1
     Pending at end of reporting period         9




                              Page -6-
                    INVESTIGATIVE ACTIVITIES


      Seventeen cases were opened and 20 cases closed in this reporting period.
The OIG Hotline was contacted ten times.

        A misappropriation of approximately $30,000 in grantee funds and the
solicitation of fees from clients for legal services that should have been free of
charge by a former executive director of a grantee in California was referred to the
U.S. Attorney, Eastern District of California. The former executive director was
indicted and arrested but the Federal charges were later dismissed and the matter
was referred to the District Attorney Office for state prosecution. In January
1996, the District Attorney’s office decided not to pursue criminal prosecution due
to statute of limitation concerns. In March 1996, the OIG referred the matter to
the Office of Disciplinary Counsel of the Colorado Supreme Court, the state in
which the former director was admitted to the bar. On June 17, 1999, the former
director was disbarred from the practice of law.

      A misappropriation of about $12,000 in grantee funds by an employee of a
grantee in South Carolina was referred to the U.S. Attorney's Office for
prosecution.

      A misappropriation of approximately $40,000 in grantee funds by former
employees of a grantee in Nevada was referred to the U.S. Attorney's Office for
prosecution.

      Five reports of Client Trust Fund Inspections were issued. The inspections
found that four grantees were in general compliance with LSC requirements, and
that one grantee was not in compliance.          Other matters arising from the
inspections were referred to LSC management as potential compliance issues.




                                      Page -7-
INVESTIGATIVE CASELOAD
 Open at beginning of reporting period                24
 Opened during reporting period                       17
 Closed during reporting period                       20
 Open at end of reporting period                      21


INVESTIGATIONS OPENED
 Relating to LSC                                      5
 Relating to LSC Grantees                             12


RECOMMENDATIONS TO MANAGEMENT FOR CORRECTIVE ACTION
 Open from previous period                            0
 Reported during this reporting period                0
 Closed during this period                            0
 Open at end of reporting period                      0


PROSECUTIVE ACTIVITIES
 Referred for prosecution this reporting period       2
 Prosecution (declined from prior period referral)    0
 Pending Action                                       1
 Convictions                                          0




                                     Page -8-
          LEGISLATIVE AND REGULATORY REVIEW


Statutory Recommendation

       Under current law, neither the OIG nor LSC management may gain access to
materials properly subject to the attorney-client privilege. Although it has been the
OIG’s position that it does not require access to materials properly subject to
attorney-client privilege, recent events have convinced the OIG and LSC
management that without such access, it is impossible to ensure that grantees
comply with statutory and regulatory restrictions and prohibitions on the legal
assistance provided.

       An LSC grantee denied the OIG access to information necessary to complete
an audit of case statistical reporting. Improperly making a blanket assertion of
attorney–client privilege, the grantee refused to provide any non-public information
to verify the type of legal services provided to clients. This is not the first time
that the OIG has encountered access problems. LSC management also has
encountered access problems and recently has been denied access by three
grantees. Last, although independent public accountants are within the attorney-
client privilege and thus should have unfettered access to grantee documents, the
OIG’s audit service reviews have revealed some restrictions on such access.

      It is essential that auditors and monitors gain access to needed information.
The denial of access is a continuing problem for the OIG, LSC management and the
independent public accountants performing the annual audits of LSC grantees. The
Inspector General and LSC President have submitted a joint legislative proposal that
would provide the access needed to hold grantees accountable for their use of
federal funds, while protecting client information from further disclosure.

Congressional Hearing

       On September 29, 1999, the House Judiciary Subcommittee on Commercial
and Administrative Law held a hearing on LSC grantee case statistical reports. The
hearing was held in the wake of various news articles concerning OIG audits of
grantee case statistical information and the publication of a paper by a well known
institution suggesting that the OIG failed to report the results of its audits as
required by the IG Act. The paper implied that this alleged failure was a deliberate
attempt to affect the appropriation under consideration in summer 1998.




                                       Page -9-
       The Inspector General testified, providing the subcommittee with the facts
regarding the audits and the OIG’s reporting to Congress. The Inspector General’s
testimony dispelled any notion that the OIG failed in its statutory duties and clearly
established that the OIG acted responsibly and appropriately in the conduct and
reporting of these audits.


Regulatory Activities

       The OIG continued its involvement in the Corporation's regulatory process in
 the current reporting period by providing comments on draft regulations. OIG
 suggestions were aimed at ensuring that the regulations implement the intent of
 Congress, provide clear guidance, and facilitate both compliance by LSC grantees
 and the monitoring of compliance. The OIG also provided comments on the
 interpretive guidance that LSC management provided to the grantees.

       The OIG presented to the LSC Board of Directors a final regulation which
 would satisfy the statutory requirement that the OIG develop rules of practice to
 implement its authority to debar, suspend and remove the auditors performing the
 annual financial statement audits of LSC grantees. The OIG plans to issue the
 final regulation in the next reporting period.




                                       Page -10-
                                               TABLE I

                       Audit Reports Issued with Questioned Costs
                        for the Period Ending September 30, 1999


                                                    NUMBER     QUESTIONED   UNSUPPORTED
                                                    REPORTS      COSTS         COSTS


A.       For which no management decision                  0      $0            $0
         has been made by the commence-
         ment of the reporting period.

B.       Reports issued during the reporting               0      $0            $0
         period



         Subtotals (A + B)                                 0      $0            $0


LESS:

C.       For which a management decision                   0      $0            $0
         was made during the reporting
         period:

         (i) dollar value of recommendations               0      $0            $0
             that were agreed to by
             management

        (ii) dollar value of recommendations               0      $0            $0
             that were not agreed to by
             management

D.       For which no management decision                  0      $0            $0
         had been made by the end of the
         reporting period

         Reports for which no management                   0      $0            $0
         decision had been made within six
         months of issuance




                                               Page -11-
                                                TABLE II

                Audit Reports Issued with Funds to be Put to Better Use
                       for the Period Ending September 30, 1999



                                                        NUMBER    DOLLAR
                                                        REPORTS   VALUE


A.       For which no management decision                   0       $0
         has been made by the commence-
         ment of the reporting period.

B.       Reports issued during the reporting                0       $0
         period



         Subtotals (A + B)                                  0       $0



LESS:

C.       For which a management decision                    0        0
         was made during the reporting
         period:

          (I) dollar value of recommendations               0       $0
               that were agreed to by
               management
        (ii) dollar value of recommendations
               that were not agreed to by                   0       $0
               management

D.       For which no management decision                   0       $0
         had been made by the end of the
         reporting period

         Reports for which no management                    0       $0
         decision had been made within six
         months of issuance




                                                Page -12-
                                             TABLE III

                              Index to Reporting Requirements
                                  of the Inspector General



       IG ACT***                        REPORTING REQUIREMENT                        PAGE
       REFERENCE

     Section 4(a)(2)       Review of legislation and regulations                      8

     Section 5(a)(1)       Significant problems, abuses, and deficiencies             2

     Section 5(a)(2)       Recommendations with respect to significant                8
                           problems, abuses, and deficiencies


     Section 5(a)(3)       Prior significant recommendations on which corrective      5
                           action has not been completed

     Section 5(a)(4)       Matters referred to prosecutive authorities                7

     Section 5(a)(5)       Summary of instances where information was refused         2

     Section 5(a)(6)       List of audit reports by subject matter, showing dollar    5
                           value of questioned costs (including a separate
                           category for the dollar value of unsupported costs) and
                           funds to be put to better use

     Section 5(a)(7)       Summary of each particularly significant report            2

     Section 5(a)(8)       Statistical table showing number of audit reports and      9
                           dollar value of questioned costs

     Section 5(a)(9)       Statistical table showing number of reports and dollar     10
                           value of recommendations that funds be put to better
                           use

     Section 5(a)(10)      Summary of each audit issued before this reporting        None
                           period for which no management decision was made
                           by the end of the reporting period

     Section 5(a)(11)      Significant revised management decisions                  None

     Section 5(a)(12)      Significant management decisions with which the           None
                           Inspector General disagrees




***Refers to sections in the Inspector General Act of 1978, as amended.




                                              Page -13-
